No. ______
In the Supreme Court of the United States
_________________________
CLARENCE J. SIMON, JR.,
Petitioner,
VERSUS
DIRECTOR, OFFICE OF WORKERS’
COMPENSATION PROGRAMS, UNITED STATES
DEPARTMENT OF LABOR, LONGNECKER
PROPERTIES, INCORPORATED, AND
SEABRIGHT INSURANCE COMPANY,
Respondents.
On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Fifth Circuit
_________________
PETITION FOR A WRIT OF CERTIORARI
_________________
Louis R. Koerner, Jr.
KOERNER LAW FIRM
1204 Jackson Avenue
New Orleans, Louisiana 70130-5120
(504) 581-6569 (O) – (504) 405-1411 (C)
A Member of the Louisiana Bar
Attorneys for Clarence Simon

QUESTIONS PRESENTED
This case poses important questions regarding
Section 33(g) of the Longshore and Harbor Workers’
Compensation Act (LHWCA).
Question I. Is a longshore worker permanently
disqualified from receiving any benefits from his
employer because his counsel, who lacked actual or
apparent authority to finalize a settlement on the
worker’s behalf, reached a tentative third-party
settlement?
Question II. If 33 U.S.C. § 933(g) was written to
allow employers to offset liability by the amount of a
third-party settlement, may all compensation be denied
to an injured worker who did not accept the third-party
offer, did not sign a release, and did not receive any
funds?
Question III. Was the Jones Act, General
Maritime Law, 905(b), or other legal regime that may
have been applicable in the district court, the third party
case, sufficiently independent of the more specific
requirement of § 933(g) so that a finding of a settlement
by the district court was neither collateral estoppel nor
binding on the administrative judge or the BRB and the
doctrine was erroneously applied?

ii
RULE 14.1 STATEMENT - LIST OF PARTIES
Petitioner (claimant-petitioner below) is Clarence
J. Simon, Jr.
Respondents (defendants-respondents below) are
Longnecker Properties, Incorporated and Seabright
Insurance Company.

iii
TABLE OF CONTENTS
QUESTIONS PRESENTED ....................................... i
RULE 14.1 STATEMENT - LIST OF PARTIES ...... ii
TABLE OF CONTENTS ........................................... iii
TABLE OF AUTHORITIES ..................................... iv
PETITION FOR A WRIT OF CERTIORARI ............ 1
OPINIONS BELOW ................................................... 1
JURISDICTION ......................................................... 1
STATUTE INVOLVED .............................................. 1
STATEMENT ............................................................. 3
THE FACTS STATED BY THE FIFTH CIRCUIT ... 4
THE CIRCUIT CONFLICTS ..................................... 6
THE CONFLICT WITH THIS COURT’S
PRECEDENT ........................................................ 7
STATEMENT OF THE CASE ................................... 8
REASONS FOR GRANTING THE PETITION ...... 14
A. Case Law......................................................... 14
B. The Most Authoritative Commentators
Agree ......................................................... 14
CONCLUSION ......................................................... 16
APPENDIX A. OPINION OF THE UNITED STATES
COURT OF APPEAL FIFTH CIRCUIT DATED
AUGUST 18, 2020. ............................................. 1a
APPENDIX B. Denial of Rehearing, October, 16,
2020 ..................................................................... 3a
APPENDIX C. BRB DECISION .............................. 4a

iv

TABLE OF AUTHORITIES
CASES
Bethlehem Steel Corp. v. Mobley, 920 F.2d
558 (9th Cir. 1990)
Estate of Cowart v. Nicklos Drilling Co.,
505 U.S. 469, 112 S. Ct. 2589, 120 L. Ed. 2d 379
(1992)
Hale v. BAE Sys. San Francisco Ship
Repair, Inc., 801 F. App'x 600 (9th Cir. 2020)
Mallott & Peterson v. Dir., OWCP [Stadtmiller],
98 F.3d 1170 (9th Cir. 1996), overruled on other
grounds by Price v. Stevedoring Servs. of Am.,
Inc., 697 F.3d 820 (9th Cir. 2012) (en banc)
O'Neil v. Bunge Corp., 365 F.3d 820, 38
BRBS 7 (CRT) (9th Cir. 2004)
Simon v. Dir., Office of Workers' Comp.
Programs, United States Dep't of Labor, 816 F.
App'x 1006, (Mem)–1007 (5th Cir. 2020)
Simon, Claimant-Petitioner, No. BRB No.
17-0579, 2018 WL 6017792, at *1–7 (DOL Ben.
Rev. Bd. Oct. 11, 2018)
Venable
v.
Louisiana
Workers’
Compensation Corp., 740 F.3d 937 (2013)
STATUTES

PAGE
6, 15

28 U.S.C. §1254(1)
33 U.S.C. § 905(b)
33 U.S.C. § 933(g)
OTHER AUTHORITY
Engerrand &, A Tedious Balance: ThirdParty Claims Under the Longshore and Harbor

1
1, 4
passim

7

6, 15
7, 15

7, 15
1

1

5

15

v
Workers' Compensation Act, 10 Loy. Mar. L.J. 1,
42–43 (2011)
Force and Norris, in 1 The Law of
Maritime Personal Injuries § 7:8 (5th ed.)
Settlement for less than the amount of
compensation due.

15

PETITION FOR A WRIT OF CERTIORARI
Petitioner Clarence J. Simon respectfully
petitions for a writ of certiorari to review the
judgment of the United States Court of Appeal for the
Fifth Circuit.
OPINIONS BELOW
The judgment of the court of appeal, Simon v.
Dir., Office of Workers' Comp. Programs, United
States Dep't of Labor, 816 F. App'x 1006, (Mem)–1007
(5th Cir. 2020) was entered on August 20, 2020. The
timely rehearing application was denied on October
19, 2019. The adverse decision of the Benefits Review
Board, which summarizes the procedural history of
the case in the district court, in a prior appeal to the
Fifth Circuit, and before the Administrative Law
Judge, may be found at Clarence J. Simon, ClaimantPetitioner, BRB No. 17-0579, 2018 WL 6017792, at
*1–7 (DOL Ben. Rev. Bd. Oct. 11, 2018)
JURISDICTION
The Fifth Circuit entered its decision on August
20, 2020 and denied rehearing on October 19, 2020.
This Court has jurisdiction under 28 U.S.C. §1254(1).
STATUTE INVOLVED
33 U.S.C. § 933(g) reads as follows:
(g) Compromise obtained by person entitled to
compensation
(1) If the person entitled to
compensation
(or
the
person's
representative) enters into a settlement
with a third person referred to in
subsection (a) of this section for an
amount less than the compensation to
which the person (or the person's

2
aaa
representative) would
aaa be entitled under
this chapter, the employer
shall be liable
aa
for compensation as determined under
subsection (f) of this section only if
written approval of the settlement is
obtained from the employer and the
employer's carrier, before the settlement
is executed, and by the person entitled to
compensation
(or
the
person's
representative). The approval shall be
made on a form provided by the
Secretary and shall be filed in the office
of the deputy commissioner within thirty
days after the settlement is entered into.
(2) If no written approval of the
settlement is obtained and filed as
required by paragraph (1), or if the
employee fails to notify the employer of
any settlement obtained from or
judgment rendered against a third
person, all rights to compensation and
medical benefits under this chapter shall
be terminated, regardless of whether the
employer or the employer's insurer has
made payments or acknowledged
entitlement to benefits under this
chapter.
(3) Any payments by the special
fund established under section 944 of
this title shall be a lien upon the
proceeds of any settlement obtained from
or judgment rendered against a third
person referred to under subsection (a) of
this section. Notwithstanding any other
provision of law, such lien shall be

3
aaa
enforceable against
aaa such proceeds,
regardless of whether
aa the Secretary on
behalf of the special fund has agreed to
or has received actual notice of the
settlement or judgment.
(4) Any payments by a trust fund
described in section 917 of this title shall
be a lien upon the proceeds of any
settlement obtained from or judgment
recorded against a third person referred
to under subsection (a) of this section.
Such lien shall have priority over a lien
under paragraph (3) of this subsection.
STATEMENT
Petitioner Simon was an employee subject to
protections of the LHWCA. Longnecker Properties
Incorporated was a LHWCA employer. Petitioner
Simon did not authorize undersigned counsel to settle
his civil lawsuit against third party Tri-Drill but only
to negotiate. The tentative settlement was rescinded
on October 16, 2015, when the employer appeared at
the mediation and refused to consent to any
settlement, prior to signature or payment. As of today,
Petitioner Simon has not been compensated for his
injuries or restored to physical health so that he can
once again be gainfully employed to support his
family.
Question I. Is a longshore worker permanently
disqualified from receiving any benefits from his
employer because his counsel, who lacked actual or
apparent authority to finalize a settlement on the
worker’s behalf, reached a tentative third-party
settlement?
Question II. If 33 U.S.C. § 933(g) was written to
allow employers to offset liability by the amount of a

4
aaa
third-party settlement, aaa
may all compensation be
denied to an injured worker
aa who did not accept the
third-party offer, did not sign a release, and did not
receive any funds?
Question III. Was the Jones Act, General
Maritime Law, 905(b), or other legal regime that may
have been applicable in the district court, the third
party case, sufficiently independent of the more
specific requirement of § 933(g) so that a finding of a
settlement by the district court was neither collateral
estoppel nor binding on the administrative judge or
the BRB and the doctrine was erroneously applied?
THE FACTS STATED BY THE FIFTH CIRCUIT
The Fifth Circuit rendered an abbreviated
opinion:
Clarence Simon appeals from an
adverse decision of the Benefits Review
Board, which affirmed an administrative
law judge ruling that Simon is barred
from recovering benefits because he
previously settled his claim with a third
party without obtaining the employer's
(Longnecker's) prior written approval.
See
33
U.S.C.
§
933(g).
The
administrative law judge held the
settlement existed and was valid based
on collateral estoppel, and the estoppel
derived from an earlier federal court
case. See Simon v. Longnecker
Properties, Inc., 671 Fed App'x. 277
(Mem.) (5th Cir. Dec. 7, 2016). Our
review considers whether the Benefits
Review Board “correctly concluded that
the [ALJ's] order was supported by
substantial evidence on the record as a

5
aaa
whole and is in accordance
with the law.”
aaa
Ingalls Shipbuilding,
aa Inc. v. Director,
OWCP, 991 F.2d 163, 165 (5th Cir. 1993).
We have carefully reviewed the record in
this case, together with the parties’
briefs. Having done so, we find no error
of fact or law.
A full discussion of the underlying fact and
procedural history is contained in the BRB decision,
which is quoted extensively in the “STATEMENT of
the CASE,” infra.
Undersigned counsel, who understands 33
U.S.C. § 933(g),1 suffered a serious automobile
accident with traumatic brain injury on July 6, 2011,
had recently undergone surgery, and was
handicapped by a fistula repair of his right ear on
August 13, 2015. This led him to mistakenly consider
the Tri-Drill settlement which both he and Tri-Drill
rejected when they eventually realized the possible
consequences of § 33(g) and the employer’s
unwillingness to consent.

See Venable v. Louisiana Workers’ Compensation Corp., 740
F.3d 937 (2013).
1

6
aaa
THE CIRCUIT
aaaCONFLICTS
In Bethlehem SteelaaCorp. v. Mobley, 920 F.2d
558, 561-62 (9th Cir. 1990), under similar factual
circumstances, the court stated:
The Supreme Court has observed
that the LHWCA is a humanitarian act
and “must be liberally construed in
conformance with its purpose, and in a
way which avoids harsh and incongruous
results.” Voris v. Eikel, 346 U.S. 328,
333, 74 S.Ct. 88, 92, 98 L.Ed. 5 (1953);
accord, Director, O.W.C.P. v. Perini
North River Assocs., 459 U.S. 297, 315–
16, 103 S.Ct. 634, 646, 74 L.Ed.2d 465
(1983).
We therefore hold that a
claimant's notice to an employer of a
third-party settlement before the
employer has made any payments and
before the Agency has announced any
award is sufficient under section
33(g)(2).
In Hale v. BAE Sys. San Francisco Ship Repair,
Inc., 801 F. App'x 600, 601–02 (9th Cir. 2020), the
employer, as here, argued that the widows of
longshore claimants forfeited their benefits under
§933(g). This was rejected by the court, which
concluded that “the forfeiture provision was not
triggered, . . .” and rejected the claim that anyone but
the claimant or his legal representative could enter
into “a settlement with a third person” such that the
forfeiture provision was triggered. 33 U.S.C. §
933(g)(1).
In Mallott & Peterson v. Dir., OWCP
[Stadtmiller], 98 F.3d 1170, 1172 (9th Cir. 1996),

7
aaa
overruled on other grounds
aaa by Price v. Stevedoring
Servs. of Am., Inc., 697 F.3d
aa 820 (9th Cir. 2012) (en
banc) (where, as here, only the attorney, who was not
“a representative” agreed to a settlement,”) the court
concluded:
In short: neither the “person
entitled to compensation” nor any
relevant “representative” entered into a
third-party settlement in either of these
cases. See 33 U.S.C. § 933(g)(1).
Consequently,
§
3(g)’s
forfeiture
provision was never triggered.
O'Neil v. Bunge Corp., 365 F.3d 820, 38 BRBS
7 (CRT) (9th Cir. 2004) supports this conclusion: if the
claimant does not sign, there is no settlement. The
court could not have stated it more clearly: “[b]ecause
Raymond O'Neil did not sign the settlement
application here, there is no enforceable settlement
between O'Neil and Bunge.” O’Neil, 365 F.3d at 827.
THE CONFLICT WITH THIS
COURT’S PRECEDENT
This case is one in which the employer’s
controversial participation in the third-party
settlement may come within the contention in Estate
of Cowart v. Nicklos Drilling Co., 505 U.S. 469, 483,
112 S. Ct. 2589, 120 L. Ed. 2d 379 (1992) that the
employer’s participation in the Transco [third-party]
settlement brought this case outside the terms of §
33(g)(1).” This case certainly exemplifies:
the stark and troubling possibility that
significant numbers of injured workers
or their families may be stripped of their
LHWCA benefits by this statute, and
that its forfeiture penalty creates a trap
for the unwary. It also provides a

8
aaa
powerful tool to employers
who resist
aaa
liability under the
aa Act. Counsel for
respondents
stated
during
oral
argument that he had used the Transco
settlement as a means of avoiding
Nicklos' liability under the LHWCA.
STATEMENT OF THE CASE
The following is taken from the opinion of the
Board of Benefits Review:
On November 1, 2011, while
working for employer as a rigger,
claimant slipped and fell from a drill pipe
and twisted his left ankle. Claimant
alleges this work injury resulted in
permanent total disability.1 On May 7,
2012, claimant filed a suit in federal
district court against employer under the
Jones Act, 46 U.S.C. §688(a), seeking
damages for his injuries. Claimant
subsequently amended his complaint six
times to include additional third-party
defendants, including United Vision
Logistics, LLC (UVL), and Tri-Drill, LLC
(Tri-Drill), and employer filed crossclaims against UVL and Tri-Drill. The
district court found that claimant was
not a Jones Act seaman and dismissed
his claims under the Jones Act while
reserving his claims under general
maritime law. Simon v. Longnecker
Properties, Inc., No. 12-1178, 2014 WL
2579980 (W.D.La. June 9, 2014); see also
W.D. La. Docket No. 6:12-cv-1178,
Document 235. Thus, despite the
dismissal of claimant's Jones Act claims,

9
aaa
the action proceeded
aaain district court as
a civil proceeding,
and employer
aa
remained a party to the case. Claimant
subsequently pursued a claim under the
Act. See 33 U.S.C. §913(d).
On August 18, 2015, several thirdparty defendants, including UVL and
Tri-Drill, filed motions for summary
judgment in district court. On
September 4, 2015, claimant and UVL
filed a “Motion to Consent Judgment
Granting
Motion
for
Summary
Judgment Filed by UV[L].” The district
court issued an order granting the
motion and dismissing UVL from the
case on September 17, 2015. On or about
October 5, 2015, while the remaining
motions for summary judgment were
pending and it was reviewing claimant's
response to the motions, employer first
learned that claimant settled his claims
against UVL and Tri-Drill without its
prior written approval.2 Employer
contacted counsel for UVL and Tri-Drill
on the same date to inquire about any
settlements, and employer learned that
claimant had agreed to a consent
judgment dismissing claimant's claims
against UVL in exchange for $2,500.
With respect to Tri-Drill, employer
learned that claimant agreed not to
oppose Tri-Drill's motion for summary
judgment in exchange for $8,000. The
next day, employer subpoenaed the
records of claimant, Tri-Drill, and UVL,

10
aaa
requesting all documents
regarding the
aaa
3
settlements.
aa
On October 6, 2015, employer
moved to dismiss claimant's Longshore
claim as barred by Section 33(g), 33
U.S.C. §933(g). On October 20, 2015, the
administrative
law
judge
denied
employer's motion to dismiss, finding
there was a genuine factual dispute
regarding whether any fully-executed
third-party settlements existed. CX 3 at
5; Order at 5.
On October 20, 2015, employer
received Tri-Drill's response to its
subpoena request in the district court
action. On October 23, 2015, based on the
email records contained in the subpoena
responses, employer filed with the
district court a motion to confirm
settlement and to dismiss, as moot, TriDrill's motion for summary judgment.
Specifically, employer argued that,
under Louisiana law, the email records
between claimant's counsel and counsel
for Tri-Drill demonstrate a meeting of
the minds with regard to all settlement
terms and, therefore, confect a valid
settlement.4 On December 28, 2015,
finding that the correspondence between
Tri-Drill
and
claimant's
counsel
constituted a settlement, the district
court granted employer's motion to
confirm settlement and dismissed TriDrill's motion for summary judgment
with prejudice. CX 4 at 4; Simon v.

11
aaa
Longnecker Properties,
No. 12-1178,
aaa
2015 WL 9482899 aa
at *2 (W.D. La. Dec.
5
28, 2015). In so doing, the court disposed
of claimant's claim against Tri-Drill.
Claimant appealed the court's order to
the United States Court of Appeals for
the Fifth Circuit.
On September 22, 2016, with
regard to claimant's claim under the Act,
employer again moved to dismiss
claimant's claim as barred under Section
33(g). Claimant opposed the motion,
asserting there was no enforceable
settlement agreement with any third
parties. At the October 2016 hearing, the
parties consented to the administrative
law judge's postponing a ruling on
employer's motion until after the Fifth
Circuit ruled on claimant's appeal of the
district court's order.
On December 7, 2016, the Fifth
Circuit affirmed the district court's
December 2015 order, finding “no
reversible error of law or fact.” Simon v.
Longnecker Properties, Inc., 671 F. App'x
277 (5th Cir. 2016). On December 20,
claimant petitioned the Fifth Circuit for
a panel rehearing regarding whether its
December 7 summary affirmance affects
claimant's claim under the Act. On
January 9, 2017, the Fifth Circuit denied
claimant's petition for rehearing. CX 8;
Simon v. Longnecker Properties, Inc., No.
15-31113 (5th Cir. Jan. 9, 2017).
On April 10, 2017, finding that

12
aaa
claimant had exhausted
aaa his avenues for
appeal in his aatort claim, the
administrative law judge considered the
merits of employer's motion to dismiss
claimant's Longshore claim pursuant to
Section 33(g)(1), 33 U.S.C. §933(g)(1).
The administrative law judge found that
claimant consented to UVL's motion for
summary judgment in exchange for
$2,500, and this did not constitute a
“settlement” under Section 33(g)(1), as
the money exchanged was for costs and
was not given in consideration for a
settlement. However, the administrative
law
judge
found
claimant
was
collaterally estopped from asserting he
did not enter into a settlement
agreement with Tri-Drill because all of
the prerequisites for application of
collateral estoppel were satisfied: 1) the
issue presented regarding whether
claimant and Tri-Drill executed a
settlement agreement is identical to the
issue in the third-party suit in state
court; 2) the issue was actually litigated
in the prior litigation; 3) the
determination of the issue was a critical
and necessary part of the district court's
judgment; and, 4) the legal standards
used to evaluate the issue are the same
under the Act as they were in the district
court proceedings. Order at 7, 9. Thus,
the administrative law judge found no
genuine issue of material fact existed as
to whether claimant and Tri-Drill

13
aaa
entered into a settlement
agreement.
aaa
Further, the administrative
law judge
aa
found the $8,000 settlement is less than
claimant's lifetime entitlement to
compensation under the Act.6 Therefore,
as it was undisputed that Tri-Drill is a
third party and claimant did not obtain
employer/carrier's written approval
prior to settling with Tri-Drill, the
administrative
law
judge
found
claimant's claim under the Act is barred
by Section 33(g)(1), and he granted
employer's motion to dismiss claimant's
claim. Order at 15. The administrative
law judge denied claimant's motion for
reconsideration, specifically rejecting his
assertions that collateral estoppel is
inapplicable
and
that
employer
inappropriately engaged in forum
shopping. Decision and Order on Recon.
at 4-6.
On appeal, claimant contends the
administrative law judge erred in
applying collateral estoppel to the
district court's determination that a
valid settlement exists between him and
Tri-Drill and that his Longshore claim is
barred by Section 33(g)(1). Claimant
contends that none of the criteria for
application of collateral estoppel have
been satisfied in this case, and that he
did not enter into settlement with TriDrill. Employer responds, urging
affirmance.7 Pursuant to the Board's
Order dated May 17, 2018, the Director,

14
aaa
Office of Workers'
Compensation
aaa
Programs (the Director),
filed a brief on
aa
8
the matter, stating that there is no basis
to conclude that Section 33(g) preempts
state law when determining whether a
settlement agreement exists. The
Director further asserts there is no
obvious error in the administrative law
judge's application of collateral estoppel
in this case.
The BRB’s opinion fails to state that during the
October 18, 2015 mediation at which the undersigned
proposed to broach the proposed settlement to his
client and ask for his consent, counsel for the
Employer/Carrier immediately announced that the
Employer/Carrier did not consent to this or any other
settlement. As a result, the tentative settlement was
rescinded by mutual agreement and consequently
never came to fruition. Claimant/Petitioner Simon,
who had not yet even been asked to give consent,
testified that he had no knowledge of the said
proposed settlement and had not consented [APP-4,
p.5].
REASONS FOR GRANTING THE PETITION
A. Case Law
In the cited decisions, Bethlehem Steel Corp.,
920 F.2d at 561-62, Hale, 801 F. App'x at 601–02,
Mallott & Peterson, 98 F.3d at 1172, and O'Neil, 365
F.3d 820, the claimant did not sign so there was no
settlement and no forfeiture of benefits.
B. The Most Authoritative Commentators Agree
As analyzed by Force and Norris, in 1 The Law
of Maritime Personal Injuries § 7:8 (5th ed.)
Settlement for less than the amount of compensation
due.

15
aaa
If, in fact, aaa
there has been no
settlement, the rule
aa that terminates or
disqualifies a claimant from receiving
benefits does not come into play. The
employer petitioned to set aside the
decision of the Benefits Review Board
that held that the employer and its
insurer owed death benefits to the
claimant, the widow of the deceased
employee. It was alleged that a
settlement had made of the claim
against a third party without the
approval of the employer and that the
settlement was ratified by claimant, who
was the "legal representative of the
deceased." Rather it appeared that
counsel for the claimant has worked out
a settlement. An Administrative Law
Judge found that claimant had not
ratified the settlement proposed by the
lawyer. This decision was approved by
the Benefits Review Board. Held, the
petition was denied. The Director's
interpretation of "representative" in §
933(g) to mean the "legal representative
of the deceased" and to exclude legal
counsel acting within the attorney-client
relationship is reasonable … . In sum,
the Board properly applied the
substantial evidence standard when it
affirmed the ALJ's finding that claimant
rejected rather than ratified any
settlement agreement."5
As stated by Engerrand &, A Tedious Balance:
Third-Party Claims Under the Longshore and Harbor

16
aaa
Workers' Compensation Act,
aaa 10 Loy. Mar. L.J. 1, 42–
43 (2011):
aa
An injured employee's express
repudiation of the settlement after
learning of it and an employee's refusal
to accept settlement monies have been
actions deemed to represent an injured
employee's denial of a third-party
settlement agreement to prevent the
application of Section 933(g).208
208 Stadtmiller v. Mallott & Peterson, 28
Ben. Rev. Bd. Serv. (MB) 304 (1994),
aff'd sub nom. Mallott & Peterson v. Dir.,
OWCP, 98 F.3d 1170 (9th Cir. 1996), cert.
denied, 520 U.S. 1239 (1997).
CONCLUSION
Considering the conflict between the courts of
appeal and the doctrinal consensus that failure to
obtain the claimant’s signature and lack of receipt of
funds is fatal to the application of 33 U.S.C. § 933(g),
this Court should grant review to provide guidance on
the proper standards for the application of 33 U.S.C.
§ 933(g) when the settlement, which may or may not
have been binding under law applicable to the third
party actions, was not binding under this totally
different statutory regime.
Inasmuch as the Employer/Carrier was the
only entity who sought to confirm the settlement and
inasmuch as counsel for Tri-Drill did not file a motion
to confirm the settlement but rather allowed it to be
rescinded, the Employer/Carrier ipso facto consented
within the meaning of 33 U.S.C. § 933(g) to the
settlement,
making
forfeiture
of
benefits
inappropriate, a windfall to the Employer/Carrier,
and a tragedy for Mr. Simon and his family.

17
aaa
The petition shouldaaa
be granted.
aa
Respectfully submitted,
KOERNER LAW FIRM
/s/ Louis R. Koerner, Jr.
Louis R. Koerner, Jr.
A member of the Louisiana Bar
1204 Jackson Avenue
New Orleans: 504-581-9569
Telecopier: 504-324-1798
(Cellular) 504-405-1411
e-mail: koerner@koerner-law.com
URL: http:/www.koerner-law.com
Counsel for Petitioner,
Clarence J. Simon
January 19, 2021

1a
APPENDIX A. OPINION OF THE UNITED
STATES COURT OF APPEAL FIFTH CIRCUIT
DATED AUGUST 18, 2020.
Clarence J. SIMON, Petitioner,
v.
DIRECTOR, OFFICE OF WORKERS’
COMPENSATION PROGRAMS, UNITED STATES
DEPARTMENT OF LABOR; Longnecker Properties,
Incorporated; Seabright Insurance Company,
Respondents.
No. 19-60215
FILED August 20, 2020
Petition for Review of an Order of the Benefits
Review Board, BRB No. 17-0579
Before Jolly, Jones, and Willett, Circuit Judges.
Per Curiam:*
Clarence Simon appeals from an adverse
decision of the Benefits Review Board, which affirmed
an administrative law judge ruling that Simon is
barred from recovering benefits because he previously
settled his claim with a third party without obtaining
the employer's (Longnecker's) prior written approval.
See 33 U.S.C. § 933(g). The administrative law judge
held the settlement existed and was valid based on
collateral estoppel, and the estoppel derived from an
earlier federal court case. See Simon v. Longnecker
Properties, Inc., 671 Fed App'x. 277 (Mem.) (5th Cir.
Dec. 7, 2016). Our review considers whether the
Benefits Review Board “correctly concluded that the
[ALJ's] order was supported by substantial evidence
on the record as a whole and is in accordance with the
law.” Ingalls Shipbuilding, Inc. v. Director, OWCP,
991 F.2d 163, 165 (5th Cir. 1993). We have carefully
reviewed the record in this case, together with the

2
s o, we find no error of fact
parties’ briefs. Having done
aaa
or law. AFFIRMED.
aa

3
aaa
APPENDIX
aaa B.
Denial of Rehearing,
aa October, 16, 2020
Case: 19-60215 Document: 00515606492 Page: 1,
Date Filed: 10/19/2020
United States Court of Appeals for the Fifth
Circuit
No. 19-60215
Clarence J. Simon,
Petitioner,
versus
Director, Office of Workers'
Compensation Programs, United
States Department of Labor;
Longnecker Properties,
Incorporated; Seabright
Insurance Company,
Respondents.
_________________________________
Petition for Review of an Order of the Benefits
Review Board, Agency No. 17-0579
_________________________________
ON PETITION FOR
REHEARING
Before Jolly, Jones, and Willett,
Circuit Judges.
Per Curiam:
IT IS ORDERED that the petition for rehearing
is DENIED.
/s/
EDITH H. JONES
United States Circuit Judge

4
aaa
APPENDIX C. aaa
BRB DECISION.
Clarence J. Simon, Claimant-Petitioner,
No. BRB
aa
No. 17-0579, 2018 WL 6017792, at *1–7 (DOL Ben.
Rev. Bd. Oct. 11, 2018)
Benefits Review Board
United States Department of Labor
CLARENCE J. SIMON, CLAIMANT-PETITIONER
v.
LONGNECKER PROPERTIES, INCORPORATED
AND
SEABRIGHT INSURANCE COMPANY,
EMPLOYER/CARRIER-RESPONDENTS
DIRECTOR, OFFICE OF WORKERS'
COMPENSATION PROGRAMS, UNITED STATES
DEPARTMENT OF LABOR, RESPONDENT
BRB No. 17-0579
October 11, 2018
DECISION and ORDER
Appeal
of
the
Order
Granting
Employer/Carrier's Motion to Dismiss and the
Decision and Order Denying Claimant's Motion for
Reconsideration of Clement J. Kennington,
Administrative
Law
Judge,
United
States
Department of Labor.
Before: HALL, Chief Administrative Appeals
Judge, BOGGS and ROLFE, Administrative Appeals
Judges.
PER CURIAM:
Claimant appeals the Order Granting
Employer/Carrier's Motion to Dismiss and the
Decision and Order Denying Claimant's Motion for
Reconsideration (2015-LHC-0110) of Administrative
Law Judge Clement J. Kennington rendered on a

5
aaa
claim filed pursuant to
aaathe provisions of the
Longshore and Harbor Workers'
Compensation Act,
aa
as amended, 33 U.S.C. §901 et seq. (the Act). We must
affirm the administrative law judge's findings of fact
and conclusions of law if they are supported by
substantial evidence, are rational, and are in
accordance with law. 33 U.S.C. §921(b)(3); O'Keeffe v.
Smith, Hinchman & Grylls Associates, Inc., 380 U.S.
359 (1965).
On November 1, 2011, while working for
employer as a rigger, claimant slipped and fell from a
drill pipe and twisted his left ankle. Claimant alleges
this work injury resulted in permanent total
disability.1 On May 7, 2012, claimant filed a suit in
federal district court against employer under the
Jones Act, 46 U.S.C. §688(a), seeking damages for his
injuries. Claimant subsequently amended his
complaint six times to include additional third-party
defendants, including United Vision Logistics, LLC
(UVL), and Tri-Drill, LLC (Tri-Drill), and employer
filed cross-claims against UVL and Tri-Drill. The
district court found that claimant was not a Jones Act
seaman and dismissed his claims under the Jones Act
while reserving his claims under general maritime
law. Simon v. Longnecker Properties, Inc., No. 121178, 2014 WL 2579980 (W.D.La. June 9, 2014); see
also W.D. La. Docket No. 6:12-cv-1178, Document 235.
Thus, despite the dismissal of claimant's Jones Act
claims, the action proceeded in district court as a civil
proceeding, and employer remained a party to the
case. Claimant subsequently pursued a claim under
the Act. See 33 U.S.C. §913(d).
On August 18, 2015, several third-party
defendants, including UVL and Tri-Drill, filed
motions for summary judgment in district court. On

6
aaa
September 4, 2015, claimant
aaa and UVL filed a “Motion
to Consent Judgment Granting
Motion for Summary
aa
Judgment Filed by UV[L].” The district court issued
an order granting the motion and dismissing UVL
from the case on September 17, 2015. On or about
October 5, 2015, while the remaining motions for
summary judgment were pending and it was
reviewing claimant's response to the motions,
employer first learned that claimant settled his claims
against UVL and Tri-Drill without its prior written
approval.2 Employer contacted counsel for UVL and
Tri-Drill on the same date to inquire about any
settlements, and employer learned that claimant had
agreed to a consent judgment dismissing claimant's
claims against UVL in exchange for $2,500. With
respect to Tri-Drill, employer learned that claimant
agreed not to oppose Tri-Drill's motion for summary
judgment in exchange for $8,000. The next day,
employer subpoenaed the records of claimant, TriDrill, and UVL, requesting all documents regarding
the settlements.3
On October 6, 2015, employer moved to dismiss
claimant's Longshore claim as barred by Section
33(g), 33 U.S.C. §933(g). On October 20, 2015, the
administrative law judge denied employer's motion to
dismiss, finding there was a genuine factual dispute
regarding whether any fully-executed third-party
settlements existed. CX 3 at 5; Order at 5.
On October 20, 2015, employer received TriDrill's response to its subpoena request in the district
court action. On October 23, 2015, based on the email
records contained in the subpoena responses,
employer filed with the district court a motion to
confirm settlement and to dismiss, as moot, Tri-Drill's
motion for summary judgment. Specifically, employer

7
aaa
argued that, under Louisiana
aaa law, the email records
between claimant's counsel
aa and counsel for Tri-Drill
demonstrate a meeting of the minds with regard to all
settlement terms and, therefore, confect a valid
settlement.4 On December 28, 2015, finding that the
correspondence between Tri-Drill and claimant's
counsel constituted a settlement, the district court
granted employer's motion to confirm settlement and
dismissed Tri-Drill's motion for summary judgment
with prejudice. CX 4 at 4; Simon v. Longnecker
Properties, No. 12-1178, 2015 WL 9482899 at *2 (W.D.
La. Dec. 28, 2015).5 In so doing, the court disposed of
claimant's claim against Tri-Drill. Claimant appealed
the court's order to the United States Court of Appeals
for the Fifth Circuit.
On September 22, 2016, with regard to
claimant's claim under the Act, employer again moved
to dismiss claimant's claim as barred under Section
33(g). Claimant opposed the motion, asserting there
was no enforceable settlement agreement with any
third parties. At the October 2016 hearing, the parties
consented to the administrative law judge's
postponing a ruling on employer's motion until after
the Fifth Circuit ruled on claimant's appeal of the
district court's order.
On December 7, 2016, the Fifth Circuit
affirmed the district court's December 2015 order,
finding “no reversible error of law or fact.” Simon v.
Longnecker Properties, Inc., 671 F. App'x 277 (5th Cir.
2016). On December 20, claimant petitioned the Fifth
Circuit for a panel rehearing regarding whether its
December 7 summary affirmance affects claimant's
claim under the Act. On January 9, 2017, the Fifth
Circuit denied claimant's petition for rehearing. CX 8;

8
aaa
Simon v. Longnecker Properties,
Inc., No. 15-31113
aaa
(5th Cir. Jan. 9, 2017). aa
On April 10, 2017, finding that claimant had
exhausted his avenues for appeal in his tort claim, the
administrative law judge considered the merits of
employer's motion to dismiss claimant's Longshore
claim pursuant to Section 33(g)(1), 33 U.S.C.
§933(g)(1). The administrative law judge found that
claimant consented to UVL's motion for summary
judgment in exchange for $2,500, and this did not
constitute a “settlement” under Section 33(g)(1), as
the money exchanged was for costs and was not given
in consideration for a settlement. However, the
administrative law judge found claimant was
collaterally estopped from asserting he did not enter
into a settlement agreement with Tri-Drill because all
of the prerequisites for application of collateral
estoppel were satisfied: 1) the issue presented
regarding whether claimant and Tri-Drill executed a
settlement agreement is identical to the issue in the
third-party suit in state court; 2) the issue was
actually litigated in the prior litigation; 3) the
determination of the issue was a critical and
necessary part of the district court's judgment; and, 4)
the legal standards used to evaluate the issue are the
same under the Act as they were in the district court
proceedings. Order at 7, 9. Thus, the administrative
law judge found no genuine issue of material fact
existed as to whether claimant and Tri-Drill entered
into a settlement agreement. Further, the
administrative law judge found the $8,000 settlement
is less than claimant's lifetime entitlement to
compensation under the Act.6 Therefore, as it was
undisputed that Tri-Drill is a third party and
claimant did not obtain employer/carrier's written

9
aaa
approval prior to settling
aaa with Tri-Drill, the
administrative law judge
aa found claimant's claim
under the Act is barred by Section 33(g)(1), and he
granted employer's motion to dismiss claimant's
claim. Order at 15. The administrative law judge
denied claimant's motion for reconsideration,
specifically rejecting his assertions that collateral
estoppel is inapplicable and that employer
inappropriately engaged in forum shopping. Decision
and Order on Recon. at 4-6.
On
appeal,
claimant
contends
the
administrative law judge erred in applying collateral
estoppel to the district court's determination that a
valid settlement exists between him and Tri-Drill and
that his Longshore claim is barred by Section 33(g)(1).
Claimant contends that none of the criteria for
application of collateral estoppel have been satisfied
in this case, and that he did not enter into settlement
with
Tri-Drill.
Employer
responds,
urging
affirmance.7 Pursuant to the Board's Order dated
May 17, 2018, the Director, Office of Workers'
Compensation Programs (the Director), filed a brief on
the matter,8 stating that there is no basis to conclude
that Section 33(g) preempts state law when
determining whether a settlement agreement exists.
The Director further asserts there is no obvious error
in the administrative law judge's application of
collateral estoppel in this case.
Section 33(g) is intended to ensure that an
employer's rights are protected in a third-party
settlement and to prevent the claimant from
unilaterally bargaining away funds to which the
employer or its carrier might be entitled under 33
U.S.C. §933(b)-(f). Parfait v. Director, OWCP, ___ F.3d
___, No. 16-60662, 2018 WL 4326520 (5th Cir. Sept.

10
aaa
11, 2018); I.T.O. Corp. ofaaa
Baltimore v. Sellman, 954
F.2d 239, 25 BRBS 101(CRT),
aa vacated in part on other
grounds on reh'g, 967 F.2d 971, 26 BRBS 7(CRT) (4th
Cir. 1992), cert. denied, 507 U.S. 984 (1993). Section
33(g)(1) requires that a person entitled to
compensation obtain prior written consent from his
employer and its carrier where he “enters into a
settlement” with a third party for an amount less than
the compensation to which he would be entitled under
the Act.9 See Estate of Cowart v. Nicklos Drilling Co.,
505 U.S. 469, 26 BRBS 49(CRT) (1992); Brown &
Root, Inc. v. Sain, 162 F.3d 813, 32 BRBS 205(CRT)
(4th Cir. 1998). Absent this approval, the employer is
not liable for disability or medical benefits.10 Cowart,
505 U.S. 469, 26 BRBS 49(CRT); Esposito v. Sea-Land
Service, Inc., 36 BRBS 10 (2002). Claimant does not
challenge the administrative law judge's findings
that: he is “a person entitled to compensation”; TriDrill is a third-party defendant; claimant would be
entitled to more than $8,000 under the Act; and
employer did not give prior written approval of a
settlement between claimant and Tri-Drill.11 As the
district court found that a settlement was entered into
between claimant and Tri-Drill, the question
presented by this case is whether the administrative
law judge properly applied collateral estoppel to
resolve this issue.
Collateral estoppel is an equitable doctrine
under which a court gives preclusive effect to findings
of fact or law made in previous court proceedings.
“Under collateral estoppel, once an issue is actually
and necessarily determined by a court of competent
jurisdiction, that determination is conclusive in
subsequent suits based on a different cause of action
involving a party to the prior litigation.” Montana v.

11
aaa
United States, 440 U.S.aaa
147, 154 (1979); see also
Thomas v. Washington Gas
aa Light Co., 448 U.S. 261,
12 BRBS 828 (1980); Barlow v. Western Asbestos Co.,
20 BRBS 179 (1988). Application of collateral estoppel
is discretionary and may be found to preclude
relitigation of a particular factual issue when: 1) the
issue to be addressed is identical to one previously
litigated; 2) the issue was fully litigated/actually
determined in the prior proceeding; 3) the issue was a
necessary part of the prior judgment; and 4) the prior
judgment is final and valid. See Ingalls Shipbuilding,
Inc. v. Director, OWCP [Benn], 976 F.2d 934, 26 BRBS
107(CRT) (5th Cir. 1992), citing Terrell v. DeConna,
877 F.2d 1267 (5th Cir. 1989); Plourde v. Bath Iron
Works Corp., 34 BRBS 45 (2000); see generally
Blonder-Tongue Laboratories, Inc. v. Univ. of Illinois
Found., 402 U.S. 313 (1971); Lawlor v. Nat'l Screen
Serv. Corp., 349 U.S. 322 (1955). The point of
collateral estoppel is that the first determination is
binding not because it is right but because it is first
and was reached after a full and fair opportunity
between the parties to litigate the issue. Bath Iron
Works Corp. v. Director, OWCP [Acord], 125 F.3d 18,
22, 31 BRBS 109, 112(CRT) (1st Cir. 1997). Collateral
estoppel effect may be denied where differences in
legal standards between the two forums preclude such
full and fair opportunity. Acord, 125 F.3d at 21, 31
BRBS at 111(CRT); Plourde, 34 BRBS 45; Casey v.
Georgetown Univ. Med. Ctr., 31 BRBS 147 (1997).
Relitigation of an issue is not precluded by the
doctrine of collateral estoppel where the party against
whom the doctrine is invoked had a heavier burden of
persuasion on that issue in the first action than he
does in the second, or where his adversary has a
heavier burden in the second action than he did in the

12
aaa
first. Newport News Shipbuilding
& Dry Dock Co. v.
aaa
Director, OWCP [Jenkins],
aa 583 F.2d 1273, 1278, 8
BRBS 723, 732 (4th Cir. 1978), cert. denied 440 U.S.
915 (1979); see also Plourde, 34 BRBS 45.
We reject claimant's assertion that the
administrative law judge erred in applying collateral
estoppel in this case as all criteria have been satisfied.
Contrary to claimant's assertion, and with respect to
the first criterion, the issue before the district court
was whether claimant and Tri-Drill executed a valid
settlement such that Tri-Drill's motion for summary
judgment was moot.12 Therefore, as the issue raised
in the district court proceeding is identical to that
raised in the administrative proceeding, we affirm
that the first prerequisite for application of collateral
estoppel is satisfied. See Benn, 976 F.2d 934, 26 BRBS
107(CRT).
With respect to the second prerequisite,
claimant asserts that the existence of a third-party
settlement was not “actually litigated” because the
district court summarily granted employer's motion
without discussing claimant or Tri-Drill's opposing
arguments. Cl. Br. at 17. We disagree. Under
Louisiana law, issues “actually litigated” include
those matters actually pleaded and decided in a court
of law. Sewell v. Argonaut Southwest Ins. Co., 362
So.2d 758, 760 (La. 1978). “It is evident from a decree
which expressly grants or rejects a thing demanded
that the matter has been adjudged.” Id. Issues
presented by the pleadings, and on which evidence
has been offered, are considered to be disposed of by a
final judgment in the case. R. G. Claitor's Realty v.
Juban, 391 So.2d 394, 398 (La. 1980); see also J.R.A.
Inc. v. Essex Ins. Co., 72 So.3d 862 (La. Ct. App. 2011).
As the district court granted employer's “motion to

13
aaa
confirm settlement,” stating
aaathere is “clear evidence of
settlement between Tri-Drill
aa and [claimant] filed into
the record by [employer],” we reject claimant's
assertion that the existence of a settlement with TriDrill was not litigated in district court. CX 5 at 4; see
R. G. Claitor's Realty, 391 So.2d at 398; Sewell, 362
So.2d at 760. As this issue was fully litigated and
determined in the prior proceedings, the second
prerequisite for application of collateral estoppel is
satisfied. See Figueroa v. Campbell Industries, 45 F.3d
311, 315 (9th Cir. 1995); Esposito, 36 BRBS 10.13
With regard to the third prerequisite, we reject
claimant's assertion that the existence of a valid a
settlement was non-critical to the district court's
judgment in the matter because it did not bar his
claims against all defendants. Cl. Br. at 20-21.
Claimant's focus on his claims against other
defendants is misplaced as the judgment at issue here
concerned his claim against Tri-Drill. As the district
court's finding of a valid settlement was a necessary
part of its granting employer's motion to confirm
settlement, which disposed of claimant's claim against
Tri-Drill, the administrative law judge properly found
the issue was critical to the judgment. See Benn, 976
F.2d 934, 26 BRBS 107(CRT); see also Cia Anon
Venezolana De Navegacion v. Harris, 374 F.2d 33, 35
(5th Cir. 1967); Theatre Time Clock Co. v. Motion
Picture Adver. Corp., 323 F. Supp. 172, 174 (E.D.La.
1971). We therefore affirm the finding that the third
prerequisite for application of collateral estoppel is
satisfied.
The fourth prerequisite, that the prior
judgment is final and valid, is also satisfied. Under
Louisiana law, declaratory judgments have the force
and effect of a final judgment or decree, La. Code Civ.

14
aaa
Proc. art. 1871, and settlement
aaa of a disputed liability
is as conclusive as a judgment
aa following litigation. Cia
Anon Venezolana De Navegacion, 374 F.2d at 35.
Further, claimant appealed the district court's
adverse decision to the Fifth Circuit, which affirmed
the judgment. See Acord, 125 F.3d 18, 31 BRBS
109(CRT). As the district court's judgment is final and
valid, the administrative law judge properly found all
criteria for application of collateral estoppel are
satisfied in this case.
Claimant next asserts that application of
collateral estoppel is inappropriate due to differences
in legal standards between the two forums.14 We
disagree; the burden of proof in both forums is
identical. The district court applied Louisiana law. In
Louisiana, one who asserts a fact in a civil action must
carry the burden of proving that fact by a
preponderance of the evidence, i.e., evidence which is
of greater weight, or more convincing, than that which
is offered in opposition to it. Town of Slidell v. Temple,
164 So.2d 276 (La. 1964); Artificial Lift, Inc. v.
Production Specialties, Inc., 626 So.2d 859 (La. Ct.
App.1993), writ denied, 634 So.2d 394 (La. 1994).
Thus, in the district court proceeding, it was
employer's burden to convince the factfinder that a
valid settlement agreement existed between claimant
and Tri-Drill. Similarly, under the Act, because
Section 33(g) is an affirmative defense, it is employer's
burden to persuade the factfinder that claimant
entered into a fully-executed settlement with a third
party.15 Barnes v. General Ship Service, 30 BRBS 193
(1996); see generally Director, OWCP v. Greenwich
Collieries, 512 U.S. 267, 28 BRBS 43(CRT) (1994)
(proponent of a rule bears the burden of persuasion by
a preponderance of evidence); Santoro v. Maher

15
aaa
Terminals, Inc., 30 BRBS
171, 173 (1996) (defining
aaa
“preponderance of the aa
evidence” as “the greater
weight of the evidence, or evidence which is more
credible and convincing to the mind”). There being no
difference in the burdens of proof, we reject claimant's
assertion that applicat ion of collateral estoppel is
inappropriate in this case. See Acord, 125 F.3d at 22,
31 BRBS at 112(CRT); Jenkins, 583 F.2d at 1278, 8
BRBS at 732; See Vodanovich v. Fishing Vessel
Owners Marine Ways, Inc., 27 BRBS 286 (1994).
As the issue under consideration in this case is
identical to the one in the district court case, was fully
litigated in the prior proceeding, was a necessary part
of the judgment, and as the prior judgment is final and
valid, claimant has not established that the
administrative law judge's application was contrary to
law or based on an abuse of his discretion.
Consequently, we affirm the administrative law
judge's finding that claimant is collaterally estopped
from asserting that he did not enter into a third-party
settlement with Tri-Drill.16 Acord, 125 F.3d at 22,
31BRBS at 112(CRT); see Welch v. Crown Zellerbach
Corp., 359 So.2d 154, 156 (La. 1978) (Louisiana's
doctrine of res judicata precludes litigation of the
object of the judgment when there is an identity of the
parties, the “cause,” and the thing demanded). We
thus affirm the administrative law judge's finding
that claimant's claim for benefits under the Act is
barred by Section 33(g)(1), as well as the dismissal of
claimant's claim under the Act. Parfait, 2018 WL
4326520 at *4.
Accordingly, the administrative law judge's
Order Granting Employer/Carrier's Motion to Dismiss
and the Decision and Order Denying Claimant's
Motion for Reconsideration are affirmed.

16
aaa
SO ORDERED.
aaa
BETTY JEAN HALL
aa
Chief Administrative Appeals Judge
JUDITH S. BOGGS
Administrative Appeals Judge
JONATHAN ROLFE
Administrative Appeals Judge
1 Claimant alleged he sustained resulting neck
and back injuries which required surgeries. Tr. at 1213 (Oct. 17, 2016).
2 Claimant did not oppose Tri-Drill's motion for
summary judgment, and specifically stated in his
response to the pending motions that, “Tri-Drill, UV
[L], and plaintiff have compromised their differences.”
EX 1A at NP 66; see also Simon v. Longnecker
Properties, No. 12-1178, 2015 WL 9482899 at *2 (W.D.
La. Dec. 28, 2015).
3 On October 8, 2015, employer filed with the
district court an opposition to Tri-Drill's motion for
summary judgment, asserting that a genuine issue of
fact existed as to Tri-Drill's liability and that it would
be inappropriate to enter a judgment in Tri-Drill's
favor rather than dismiss the case because the parties
settled their dispute. See Opposition of Clarence
Simon to Motion to Dismiss (October 19, 2015) exh. 3
at 2.
4 Tri-Drill opposed employer's motion,
asserting that employer lacked standing to seek
dismissal of Tri-Drill's motion and lacked standing to
enforce a compromise between other parties. In so
doing, Tri-Drill explicitly noted, ““Tri-Drill does not
concede that the agreement between Plaintiff and TriDrill is an unenforceable compromise, and it expressly
reserves the right to pursue any and all available

17
aaa
relief it may be entitled to,
aaaincluding enforcement of
agreements with any party.”
aa CX 6 at 1 n.1. Claimant
also opposed employer's motion on procedural
grounds. CX 7.
5 Specifically, the court stated:
Finally, before the Court is the Motion for
Summary Judgment filed by Tri-Drill (Doc. 244),
which is unopposed by plaintiff, but opposed by
[employer,] and the Motion to Dismiss and Confirm
Settlement (Doc. 277) by [employer], referring to said
summary judgment motion. Based on the clear
evidence of settlement between Tri-Drill and
[claimant] filed into the record by [employer], the
Motion to Dismiss and Confirm Settlement is
GRANTED. The Motion for Summary Judgment by
Tri-Drill is DISMISSED with prejudice.
Simon, 2015 WL 9482899 at *2 (emphasis in
original).
6 Assuming, arguendo, that claimant is
permanently
totally
disabled
and
earned
approximately $1,100 per week, Tr. at 12-13, the
administrative law judge found that claimant would
be entitled to $19,533.33 as of the end of 2016. The
administrative law judge further found that, even if
employer's liability was to be calculated using the
lowest possible estimate of temporary total disability
benefits, the $8,000 settlement amount would be
eclipsed within approximately eleven weeks. Order at
14.
7 Employer contends claimant's Petition for
Review and brief was untimely filed and “should be
disregarded.” The Board acknowledged claimant's
appeal on August 7, 2017. Although claimant's brief
was due within thirty days of his receipt of the
acknowledgement, it was not until September 21,

18
aaa
2017, that the Board received
aaa claimant's brief dated
September 18, 2017. Notwithstanding
employer's
aa
objection, we accept claimant's brief as part of the
record. 20 C.F.R. §§802.211, 802.217.
8 The Board's May 2018 Order requested that
the Director address the issues raised in claimant's
appeal and that he also address “whether, and, if so,
to what extent Section 33(g) modifies or pre-empts
state law for determining whether a person entitled to
compensation has ‘entered into a settlement’ with a
third party.” Simon v. Longnecker Properties, Inc.,
BRB No. 17-0579 (May 17, 2018). We accept this brief,
which is accompanied by a motion to accept it out of
time. 20 C.F.R. §§802.215, 802.217.
9 Section 33(g)(1) of the Act states:
If the person entitled to compensation (or the
person's representative) enters into a settlement with
a third person referred to in subsection (a) of this
section for an amount less than the compensation to
which the person (or the person's representative)
would be entitled under this chapter, the employer
shall be liable for compensation as determined under
subsection (f) of this section only if written approval of
the settlement is obtained from the employer and the
employer's carrier, before the settlement is executed,
and by the person entitled to compensation (or the
person's representative). The approval shall be made
on a form provided by the Secretary and shall be filed
in the office of the deputy commissioner within thirty
days after the settlement is entered into.
33 U.S.C. §933(g)(1).
10 As the proponent of the Section 33(g)
defense, the employer bears the burden of
establishing that the claimant entered into a thirdparty settlement for less than his compensation

19
aaa
entitlement. Edwards v. Marine
Repair Services, Inc.,
aaa
49 BRBS 71, 75 n.9 (2015),
aamodified in part on recon,
50 BRBS 7 (2016).
11 We affirm these findings as unchallenged on
appeal. See Scalio v. Ceres Marine Terminals, Inc., 41
BRBS 57 (2007).
12 The Act does not define “settlement” and is
silent with regard to what it means to have “entered
into a settlement” with a third party. Consequently,
the Board agrees with the Director that Section 33(g)
does not preempt the use of state law in determining
whether a settlement has been entered into. See
Sprietsma v. Mercury Marine, 537 U.S. 51, 64 (2002);
Hale v. BAE Systems San Francisco Ship Repair, ___
BRBS ___, BRB No. 17-0523 (Oct. 10, 2018); see also
Mallot & Peterson v. Director, OWCP [Stadtmiller], 98
F.3d 1170, 1174, 30 BRBS 87, 89(CRT) (9th Cir. 1996)
(applying state law in interpreting settlement
agreement), cert. denied, 520 U.S. 1239 (1997)
overruled on other grounds by Price v. Stevedoring
Services of America, 697 F.3d 820, 46 BRBS 51(CRT)
(9th Cir. 2012); Williams v. Ingalls Shipbuilding, 35
BRBS 92, 95 (2001) (Act does not define “settlement”).
13 In Esposito, the Board rejected the
claimant's assertion that his third-party settlement
was not executed until he received the settlement
proceeds from the third-party defendant. The Board
held that the settlement was fully executed when
claimant signed a general release in return for
$60,000 and filed a stipulation of dismissal with
prejudice because the parties could not rescind the
agreement and return to the status quo ante. Esposito,
36 BRBS 10. Although claimant, here, has yet to
accept any settlement funds, he fully executed the
settlement with Tri-Drill in acquiescing to its motion

20
aaa
for summary judgment. Claimant
never withdrew this
aaa
“consideration.” Further,
aa as the district court
confirmed the settlement and dismissed Tri-Drill's
motion for summary judgment with prejudice, there
can be no question that the parties are unable to
return to the status quo ante. See Cia Anon
Venezolana De Navegacion v. Harris, 374 F.2d 33, 35
(5th Cir. 1967) (an agreement of the parties settling a
disputed liability is as conclusive of their rights as a
judgment would be if it had been litigated instead of
compromised); Theatre Time Clock Co. v. Motion
Picture Adver. Corp., 323 F. Supp. 172, 174 (E.D.La.
1971) (voluntary settlements of civil controversies are
highly favored by courts and a valid settlement
agreement once entered into cannot be repudiated by
either party).
14 Contrary to claimant's assertion, the
provisions of Section 8(i), 33 U.S.C. §908(i), are not
applicable to third-party settlements.
15 Contrary to claimant's assertion, the true
doubt rule is no longer good law and is therefore
inapplicable under the Act. Director, OWCP v.
Greenwich Collieries, 512 U.S. 267, 28 BRBS 43(CRT)
(1994). In any event, the burden here is on employer.
16 We reject claimant's assertion that employer
engaged in “forum shopping” by raising the existence
of a settlement agreement in the district court
proceedings after the administrative law judge
denied, as premature, employer's initial motion to
dismiss claimant's claim as barred under Section
33(g). As the administrative law judge stated on
reconsideration:
Before the issuance of the October 2015 Order,
Employer/Carrier served subpoenas on various
entities and persons in the district court matter to

21
aaa
clarify whether any settlement
aaa between Claimant and
Tri-Drill existed. The district
court action was a
aa
separate, simultaneous pending case filed by
Claimant in which the disputed settlement occurred.
Decision and Order on Recon. at 5. Further, to
the extent claimant argues that employer is estopped
from asserting a settlement exists based on the
administrative law judge's October 2015 Order, which
denied employer's initial motion to dismiss, we also
reject this assertion. The administrative law judge's
October 2015 Order was not a final decision, and it
predates employer's receipt of evidence used to
establish in district court that a confected settlement
existed.

